Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  ENTERAL NUTRITION THERAPY: 

      MEDICAL NECESSITY 





                SE~VICEs
          &+*         ‘6sB
         9
         P                     JUNE GIBBS BROWN
                      //
                           /   Inspector General

                                    JUNE 1997
                                  OEI-03-94-00022
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.



                        Office of Evaluationand Inspections

The Office of Evaluation and Inspections (OEI) is one of several       components of the 

Office of Inspector General. It conducts short-term management         and program 

evaluations (called inspections) that focus on issues of concern to    the Department, the 

Congress, and the public. The inspection reports provide findings       and 

recommendations on the efficiency, vulnerability, and effectiveness      of departmental 

programs. 


OEI’s Philadelphia Regional Office prepared this report under the direction of Robert 

A. Vito, Regional Inspector General. Principal staff included: 


       Isabelle Buonocore, Project Leader 
                        Medical Reviewers 

       Amy J. Semyak, Lead Analyst 
                               Dr. Mark Delowery 

       Donald Flythe, Program Analyst 
                            Dr. Thomas E. Martin 

       Cynthia Hansford, Program Assistant 

       Robert A. Katz, Program Analyst 

       Brian Levine, Intern 

       Richard Lyons, Auditor, OIG/OAS 

       Nancy J. Molyneaux, Program Analyst 

       Linda Moscoe, Program Analyst 

       Linda M. Ragone, Program Analyst 

       Sarah Richards, Management Trainee 

       Brian Ritchie, Program Analyst 

       Ethan Shaw, Intern 

       Barbara Tedesco, Mathematical Statistician 


To obtain a copy of this report, call the PhiladelphiaRegional Office at (800) 531-9562
              EXECUTIVE                         SUMMARY

PURPOSE

The purpose of this study was to determine whether Medicare Part B enteral nutrition
therapy claims in 1995 met Medicare guidelines for medical necessity.

BACKGROUNJD

Enteral nutrition therapy, commonly called tube feeding, is a means of providing
nourishment to patients who cannot swallow because of severe or permanent medical
problems. Patients are fed nutritional formulas through a tube which is threaded
through the nose, or a surgical opening, and leads directly to the stomach or intestine.
The three methods of delivering enteral nutrition are syringe, gravity, and pump.

In 1995, the Medicare program and its beneficiaries paid $660 million for enteral
nutrition products. This cost covered formulas as well as equipment and supplies, with
the equipment and supplies representing more than half the total. The pump delivery
method cost approximately $281 million compared to $29 million and $18 millon for
the gravity and syringe methods respectively.

In this study, we obtained medical data from physicians, nursing homes, home health
agencies, and suppliers for a national sample of beneficiaries whose 1995 enteral
nutrition claims were paid by Medicare’s durable medical equipment regional carriers
(DMERCs). We had physicians review the medical data and determine whether
beneficiaries met medical necessity guidelines.

FINDINGS

Most benejidak    met medicalnecessitygzdeline~for enter-alnutdim in 1495.

Eighty percent of beneficiaries met Medicare criteria for enteral nutrition; 3 percent
did not; and 17 percent had insufficient or conflicting documentation.    We estimate
that Medicare allowed about $12.2 million (in formula, equipment, and supplies) for
the 3 percent of beneficiaries who did not meet guidelines for enteral nutrition.

l%ere are vulnerabilities,
                        howeva, withregardto the use of specialenteralform&s and
thepump deliwry method

  b    Special Enteral Formulas

       Twenty-four percent of beneficiaries used special formulas. Of that subgroup,
       10 percent did not meet medical necessity guidelines for special formulas; 77
       percent did; and 13 percent had conflicting information. We estimate



                                            i
       questionable Medicare allowances for beneficiaries   who did not meet special
       formula criteria to be about $2.9 million.

  b    Pump Delivery Method

       Seventy-six percent of beneficiaries use the pump delivery method of enteral 

       nutrition. Of that subgroup, 9 percent did not meet Medicare criteria for the 

       pump delivery method; 85 percent did; and 6 percent had conflicting 

       information. The questionable allowance estimate for beneficiaries who did not 

       meet Medicare guidelines for pump delivery method is about $7.5 million. 


       Of the beneficiaries who met pump criteria, 37 percent did so based solely on 

       Medicare’s slow administration rate criterion which our medical reviewers 

       believe is vulnerable to abuse. The beneficiaries who met that criterion did not 

       have medical conditions warranting a slow administration rate. Had these 

       beneficiaries not met pump criteria, Medicare would have reimbursed for the 

       less expensive gravity delivery method, and saved about $28 million. ‘Our 

       medical reviewers also believe Medicare’s aspiration criterion for the pump 

       delivery method is vulnerable to abuse. Beneficiary medical charts generally 

       did not demonstrate that aspiration occurred during tube feeding, which is a 

       condition that makes the pump delivery method necessary. 


IXFCOMMENDATIONS

We recognize that it would not be manageable or cost effective for DMERCs to 

conduct a medical review for every claim. However, we believe the vulnerabilities we 

found with special enteral formulas and the pump delivery method require attention. 

We have two recommendations.      The first has to do with Part B claims review, and 

the second has to do with changing the structure of payment for beneficiaries in 

nursing homes. 


We recommend that DI$ERCs consider selecting claims for special formulas, pump 

equipment, and/or pump supply kits when they determine target areas for focused 

medical reviews. This recommendation has the added advantage of addressing claims 

for all beneficiaries regardless of place of service. 


We recommend that when enteral nutrition is provided in nursing homes, the 

Medicare program should cover enteral formulas, equipment, and supplies under the 

nursing home daily rate rather than under Part B. Of beneficiaries with Part B enteral 

nutrition claims, more than two-thirds reside in homes. We believe if enteral nutrition 

therapy products are bundled into the nursing home daily rate, nursing homes will be 

motivated to select the most economical and appropriate formulas and delivery 

methods for beneficiaries. 





                                           ii
A draft of this report was reviewed by the Health Care Financing Administration
(HCFA) and the Assistant Secretary for Planning and Evaluation. Both concurred
with our recommendations.      In addition, HCFA provided information about several
initiatives they are pursuing to address problems raised in this report. The full text of
HCFA’s comments are in Appendix C.




                                           .. .
                                           111
                    TABLE                      OF             CONTENTS

                                                                                                                    PAGE


EXECUTIVESUMMARY                    .......................................... 
                                           i

INTRODUCTION..          ............................................... 
                                               1

FINDINGS 


 � Medical   necessity of enteral nutrition                 ................................ 
                          6

 � Medical   necessity of special formulas                  ................................ 
                          6

 � Medical   necessity of pump delivery method                          ...........................                     7


 � Vulnerability   of Medicare guidelines                 .................................                             7


RECOMMENDATIONS                ...............                        . .    . .    . .       ...................       9


APPENDICES 


A: Recent OIG Studies on Enteral Nutrition                            . .    . .    . .       .................      A-l 


B: Estimates and Confidence           Intervals ................................                                     B-l 


C: Comments on draft report              ......................................                                      C-l
                         INTRODUCTION

PURPOSE

The purpose of this study was to determine whether Medicare Part B enteral nutrition
therapy claims in 1995 met Medicare guidelines for medical necessity.

BACKGROUND

Enteralrzutdiontherapy

Enteral nutrition therapy, commonly called tube feeding, is a means of providing
nourishment to patients who cannot swallow because of a severe or permanent
medical problem. The patient receives a nutritional formula through a tube which is
threaded through the nose, or a surgical opening, and leads directly to the stomach or
intestine.

Nutritional formulas vary in terms of ingredients. Each has a Health Care Financing
Administration (HCFA) procedure code for reimbursement purposes. The most
commonly used formulas are those coded B4150. They are composed of semi-
synthetic intact proteins and are appropriate for the majority of patients. When
special formulas (other than B4150 and B4152) are claimed, such as those for persons
with allergies or blood glucose fluctuations, billers must have documentation of
medical need for those formulas. For example, there is a special formula for patients
with diabetes, and its procedure code is xX033. If documentation of medical necessity
for special formula is not supplied and the code billed is for a more expensive formula
than the commonly used B4150 formulas, Medicare will reimburse the special formula
claim at the less expensive B4150 formula rate.

There are three methods of delivering formula to the digestive tract and each requires
different supplies. The methods are syringe, gravity, and pump. The pump method is
the most expensive and Medicare requires documentation that this method is
medically necessary. If documentation is not supplied, Medicare will not pay for the
pump equipment and will reduce the pump supplies reimbursement to the less
expensive gravity supplies level.

In clinical practice, the three delivery methods fall into two categories of feeding
schedules: intermittent and continuous. The implementation of a continuous feeding
schedule requires the use of a pump to deliver formula at a constant rate over 24
hours. The pump method of delivery may be necessary when beneficiaries experience
complications with the syringe or gravity method. For the person administering the
enteral nutrition, the pump method is easier and more convenient.
Enteral nutrition is administered by trained persons, e.g., nursing staff if the patient is
in a nursing home. When the patient lives at home, enteral nutrition is likely to be
administered by a family member or staff from a home health services agency.

Regional M&are     cati

Since Medicare covers enteral nutrition therapy under the prosthetic device benefit,
claims are processed by a durable medical equipment regional carrier (DMERC).
There are four DMERCs. Prior to the start-up of DMERCs in Fiscal Year 1994,
parenteral and enteral nutrition claims were processed by two specialty carriers, and
durable medical equipment claims were processed by more than 30 other carriers.
The DMERCs were created by Federal regulation in 1993 to process claims for
durable medical equipment, prosthetics, orthotics, and supplies, including parenteral
and enteral nutrition. The purpose of regionalization was to (1) streamline claims
processing for these types of claims, (2) reduce costs, (3) strengthen control over
abusive supplier practices, and (4) bring more uniform coverage to beneficiaries across
the country. Suppliers of enteral products are reimbursed by the DMERC which
services the region where the patient lives.

With approval from HCFA, DMERCs establish medical policy and guidelines for the
review of claims. Claims for enteral nutrition therapy must meet certain criteria in
order to be considered medically necessary. Criteria include (1) severity or
permanence of a condition which inhibits normal swallowing function, and (2) inability
to take in, other than by tube feeding, the number of calories needed to maintain
weight and strength commensurate with overall health status. Claims for special
formulas (codes other than B4150 and B4152) must have documentation of medical
need.

Claims for the pump delivery method must also have documentation of medical need.
Medicare’s medical necessity criteria for the pump include the following: (1) reflux or
aspiration; (2) dumping syndrome (nauseabomiting);      (3) severe diarrhea; (4)
circulatory overload; (5) blood glucose fluctuations (diabetes); and (6) formula
administration rate of less than 100 cc per hour.

With initial enteral nutrition claims, the biller must send the DMERC a completed
form known as a Certificate of Medical Necessity (CMN). A physician must complete
the clinical portion of the CMN and sign it to attest that there is medical need for the
enteral nutrition therapy.

If the DMERC receives enteral nutrition claims for a beneficiary (1) whose claims
were deemed medically necessary by the pre-DMERC carrier and (2) whose enteral
nutrition is still prescribed by a physician, Medicare considers those claims
grandfathered and the DMERC will reimburse them. Grandfather provisions vary
slightly at each DMERC, but all accept the previous carrier’s determination that the
beneficiary had medical need for enteral nutrition.



                                             2

Cost of enteml nubition produck

In 1995, the Medicare program and its beneficiaries paid approximately $660 million
for enteral nutrition therapy products (according to HCFA’s Part B Extract and
Summary System). This cost covered formulas as well as equipment and supplies, with
the equipment and supplies representing more than half of the total cost. Below is a
breakdown of the $660 million by formula, equipment, and supplies.


                        Products               1995Medicare   Part B Allowances   I
          Formulas                                              $316,381,467
         II	
          Iv   Poles                                                6,238,856

          Pump equipment                                          44,887,197
                                          II
          Pump supply kits                                       236641,625
           Gravity supply kits                                    29,436,137
                                          II
          Syringe supply kits                                      17,769,943
         IIOther   suuulies               II                        6,101,893


Recent Ojjke of Inspector General studies on enteral nut&on

Five recent Office of Inspector General studies addressed enteral nutrition therapy
from other perspectives. They (1) compared enteral nutrition coverage policies of
Medicare Part B and other payers, (2) compared reimbursement methodologies of
Medicare Part B and other payers, (3) examined Part B payment levels for enteral
nutrition therapy for beneficiaries in nursing homes, (4) examined Part B payments for
enteral equipment and supplies for beneficiaries in nursing homes, and (5) assessed
Part B payments for non-professional services which are covered under the Part A
skilled nursing facility benefit. A list of study titles is in Appendix A.
                           .
Several studies showed that Medicare Part B’s enteral nutrition therapy payments are
higher than they should be. Recommendations focused on ways Medicare can save
money, such as: (1) reducing reimbursement rates for specific products, (2) changing
the reimbursement methodology in order to take advantage of market forces, (3)
eliminating the enteral nutrition benefit from Part B when the beneficiary is in a
nursing facility and folding enteral nutrition services into the nursing home daily rate
rate. Together, the Inspector General’s studies on enteral nutrition therapy provide
comprehensive information for decision makers.

SCOPE AND METHODOLDGY

We conducted this study from April 1996 through January 1997, beginning with a
review of Medicare policies and guidelines for determining whether enteral nutrition


                                               3
therapy claims are medically necessary. This study was part of Operation Restore
Trust (ORT), the 2-year demonstration project of Federal and State Governments to
identify, reduce, and prevent fraud, waste, and abuse in targeted areas. Targeted
areas include nursing homes, hospices, home health agencies, and durable medical
equipment companies.

Sampling

 We selected a stratified random sample of 510 Medicare beneficiaries whose Part B
 claims were paid for enteral formula delivered in May 1995. The month was selected
 at random. Beneficiaries were selected from a HCFA 5 percent file of 1995 Medicare
 Part B enteral claims. Stratification was based on (1) whether beneficiaries lived in
 ORT or non-ORT States, and (2) whether beneficiaries had low, mid-range, or high
 monthly expenses for formula. (The ORT States are California, Florida, Illinois, New
 York, and Texas.) We did not select beneficiaries with formula expenses under $50
 for the month. Allowances of less than $50 accounted for only 0.2 percent of total
‘May 1995 allowances. Of beneficiaries selected for the sample, the highest formula
 allowance for May 1995 was $1,567.72. Below is a table describing each stratum.

       Strata 	      Criteria
         1           ORT, Low monthly expenses ($50 to $224)
         2           ORT, Mid-range monthly expenses ($225 to $399)
         3           ORT, High monthly expenses (greater than $400)
         4           Non-ORT, Low monthly expenses ($50 to $224)
         5           Non-ORT, Mid-range monthly expenses ($225 to $399)
         6           Non-ORT, High monthly expenses (greater than $400)

Data Colkction

Using the HCFA 5 percent file of 1995 Medicare Part B enteral claims, we identified 

all May 1995 enteral claims including formula, equipment, and supplies for the 

beneficiaries in our sample. 


From the National Supplier Clearinghouse, we acquired the names and addresses of 

billers who were reimbursed for sample beneficiaries’ claims. We wrote to the billers, 

and they provided us with physician-signed CMNs associated with the sample 

beneficiaries’ formula claims. While we also asked billers for hard copies of the May 

1995 claims for sample beneficiaries, most could not provide them since they bill 

electronically. Billers also gave us names and addresses of physicians and nursing 

facilities that provided care for sample beneficiaries during May 1995. The billers did 

not have names and addresses of home health agencies that provided care for 

beneficiaries, so we requested this information from beneficiaries’ physicians. 


We wrote to beneficiaries’ physicians, nursing homes, and home health agencies to ask 

(1) if they provided care to the beneficiary; (2) clinical questions about the 

beneficiary’s condition; and (3) questions about the formula given and methods of 



                                            4
administration and delivery. We also requested that these providers send us
documentation of medical need for enteral formula and equipment. Documentation
included but was not limited to reports of x-rays, lab results, discharge summaries,
progress notes, and operative reports.

Medical Review and Data Analysis

With the documents we received from each type of respondent, we compiled a
medical chart for each sample beneficiary. A team of physicians from Federal
Occupational Health, a division of the Public Health Service, reviewed charts for 387
of the 510 sample beneficiaries to determine whether the claims for enteral nutrition
therapy met Medicare’s medical necessity guidelines. Medical reviews could not be
done for 123 of the 510 sampled beneficiaries for the following reasons: either billers
could not be located, billers could not be contacted because they were under
investigation by another agency, beneficiaries’ medical providers could not be
identified, or beneficiaries were in the pretest sample.

The medical reviewers examined four areas for which Medicare has medical necessity
guidelines: (1) enteral nutrition, (2) caloric intake, (3) special formulas, and (4) pump
delivery method. For each area, the reviewers determined whether the beneficiary
met Medicare guidelines, did not meet Medicare guidelines, or a determination could
not be made due to insufficient or conflicting information. For each area, we
quantified the medical review results. We then estimated Medicare allowances for
beneficiaries who did not meet medical necessity guidelines for enteral nutrition,
special formula, and pump delivery method. We also quantified the place of service
for all 510 sample beneficiaries and the subgroups who did not meet medical necessity
guidelines for special formula, and pump delivery method.

We sent the DMERCs lists of beneficiaries whose claims did not meet medical
necessity guidelines and asked them to identify the grandfathered ones. We recognize
that DMERCs are not responsible for medical necessity determinations on
grandfathered claims. Those claims were deemed medically necessary by previous
carriers. Since our medical review was based on the medical necessity guidelines used
by the DMERCs, the findings in this report are presented for the total number of
beneficiaries and a subtotal which excludes grandfathered beneficiaries.

We used the Survey Data Analysis (SUDAAN) software package to compute
percentage, allowance, and confidence interval estimates presented in the Findings
section and Appendix B. Appendix B also contains explanations of how we arrived at
allowance estimates. Estimates are weighted based on sample selection probabilities
in each stratum.

This study was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            5

                                 FINDINGS

MOST BENEFICIARIES MET MEDICAL NECESSITY GUIDELINES FOR
ENTERAL NUTRITION IN 1995

Seventy-seven percent of beneficiaries with 1995 enteral claims met Medicare’s
medical necessity criteria. When we factored grandfathering provisions into our
analysis, the percentage of beneficiaries who met the criteria rose from 77 to 80
percent. As we mentioned in the Background section, Medicare does not hold
DMERCs accountable for medical necessity determinations for grandfathered claims.

Four percent of beneficiaries did not meet medical necessity criteria for enteral
nutrition. Excluding grandfathered beneficiaries, only 3 percent did not meet the
criteria. We estimate that Medicare allowed $17.6 million for medically unnecessary
enteral nutrition therapy in 1995, or $12.2 million when grandfathered beneficiaries
are excluded.

The remaining 19 percent of beneficiaries--and 17 percent of non-grandfathered
beneficiaries--were ones for whom the medical review determination was “insufficient
or conflicting documentation.”   Our medical reviewers explained that most of these
medical charts had insufficient rather than conflicting data. Beneficiaries’ physicians,
nursing homes, or home health agencies did not send the supporting documents we
requested, or the documents they sent were incomplete.

Conjlicting data aboutpremibed    calories

Our medical reviewers frequently saw that beneficiaries’ caloric needs written on
CMNs differed from caloric information provided by nursing homes and/or physicians.
However, in most cases the discrepancy in calories still fell within the Medicare
guidelines. The medical reviewers took a conservative approach to these medical
charts. Instead of determining that due to conflicting documentation a determination
could not be made, they determined that Medicare’s caloric guidelines were met. The
results for nongrandfathered   beneficiaries were that 91 percent of beneficiaries met
the caloric guideline; 3 percent did not; and 6 percent could not be determined. We
would add that a possible explanation for caloric discrepancies is that billers did not
submit new CMNs, as required, when beneficiaries’ caloric prescriptions changed.

MEDICAL NEED FOR SPECIAL FORMULAS WAS NOT ALWAYS
DOCUMENTED

Of the beneficiaries who used special formulas, 23 percent did not have documented
medical need for them. Estimated questionable Medicare allowances for these
undocumented special formulas totalled about $8 million. When we excluded
grandfathered beneficiaries, 10 percent did not have the required documentation, and
the questionable allowance estimate dropped to $2.9 million.


                                             6
Medicare requires documentation of medical necessity for special formulas. For 

example, if the formula claimed is for diabetics the medical record should indicate that 

the beneficiary is being treated for diabetes. If medical necessity for a special formula 

is not documented Medicare will reimburse the special formula claim at a less 

expensive formula rate. 


Of the 40 sample beneficiaries who did not have documented need for special 

formula, 28 were in skilled nursing facilities, 4 were in regular nursing facilities, and 8 

were at home. Excluding grandfathered beneficiaries, 16 sample beneficiaries did not 

have documented need for special formula, 10 were in skilled nursing facilities, 3 were 

in regular nursing facilities, and 3 were at home. Of the total 510 sample 

beneficiaries, 311 were in skilled nursing facilities, 41 in regular nursing facilities, 2 in 

custodial care facilities, and 156 at home. 


SOME BENEFICIARIES DID NOT HAVE MEDICAL JUSTIFICATION FOR
THEPUMP DELIVERY METHOD

Seventy-eight percent of sample beneficiaries used the pump method of delivering
formula to the digestive tract. Of those using the pump method, 80 percent met
medical necessity guidelines, 14 percent did not, and 6 percent could not be
determined. When we excluded grandfathered beneficiaries from our analysis, 85
percent of beneficiaries using the pump method met the medical necessity guidelines,
9 percent did not, and 6 percent could not be determined.

We estimate that the Medicare program and its beneficiaries paid $11.5 million for
medically unnecessary pump equipment and related supplies in 1995. If grandfathered
beneficiaries are excluded, the estimated questionable amount is $7.5 million.

Of the 41 sample beneficiaries who did not meet the pump criteria, 23 were in skilled
nursing facilities, 4 were in regular nursing facilities, 1 was in a custodial care facility,
and 13 were at home. Excluding grandfathered beneficiaries, 23 sample beneficiaries
did not meet the pump *criteria, 11 were in skilled nursing facilities, 3 were in regular
nursing facilities, 1 was in a custodial care facility, and 8 were at home.

CERTAIN MEDICAL NECESSITY GUIDELINES FOR THE PUMP DELIVERY
METHOD MAY BE VULNERABLE TO ABUSE

Our medical reviewers believe two medical necessity criteria for the pump delivery
method may be vulnerable to abuse. One is the formula administration rate of less
than 100 cc per hour, and the other is the aspiration or reflux criterion.

Thirty-seven percent of non-grandfathered beneficiaries who met medical necessity
guidelines for the pump method of delivery did so based only on the administration
rate criterion. But the medical reviewers found that these beneficiaries did not have
documentation for conditions warranting a slow delivery rate. If these beneficiaries’
pump claims had been deemed medically unnecessary, Medicare and its beneficiaries 

would have saved an estimated $28 million in 1995. 


If a rate of administration less than 100 cc per hour is written on the CMN, Medicare 

considers the pump medically necessary. The reason why the beneficiary needs such a 

slow administration rate need not be documented. Our medical reviewers question 

why Medicare considers a slow rate, alone, presumptive evidence of meeting 

guidelines for the pump delivery method. They expressed concern that the slow rate, 

and therefore the pump, may have been prescribed for the convenience of nursing 

home staff. Among our sample beneficiaries, 61 percent were in skilled nursing 

facilities and 7 percent were in regular nursing facilities. The remaining 31 percent 

lived at home. 


The other criterion which may be vulnerable to abuse is the documentation of 

aspiration/reflux as the medical reason for requiring the pump delivery method. Our 

medical reviewers believe that billers may be misinterpreting this criterion. Aspiration 

during swallowing is a common reason for initiating tube feedings. Once a tube is 

inserted, it by-passes the dysfunctional area. Aspiration during tube feeding, on the 

other hand, is due to reflux. The presence of aspiration from swallowing does not 

mean there is a risk of aspiration from reflux. The reviewed medical charts generally 

did not demonstrate that aspiration was from refhrx. 


Since Medicare reimburses claims where aspiration alone is indicated, and where a 

slow administration rate alone is documented, our medical reviewers determined those 

claims medically necessary. But they believe Medicare should clarify the one criterion, 

specifying that aspiration must be due to reflex, and should strengthen the second 

criterion by requiring documentation of a condition that warrants a slow administration 

rate. 





                                            8

                    RECOMMENDATIONS

We recognize that it would not be manageable or cost effective for DMERCs to 

conduct a medical review for every claim. However, we believe the vulnerabilities we 

found with special enteral formulas and the pump delivery method require attention. 

We have two recommendations.      The first has to do with Part B claims review, and 

the second has to do with changing the structure of payment for beneficiaries in 

nursing homes. 


We recommend that DMERCs consider selecting claims for special formulas, pump 

equipment, and/or pump supply kits when they determine target areas for focused 

medical reviews. This recommendation has the added advantage of addressing claims 

for all beneficiaries regardless of place of service. 


We recommend that when enteral nutrition is provided in nursing homes, the 

Medicare program should cover enteral formulas, equipment, and supplies under the 

nursing home daily rate rather than under Part B. Of beneficiaries with Part B enteral 

nutrition claims, more than two-thirds reside in homes. We believe if enteral nutrition 

therapy products are bundled into the nursing home daily rate, nursing homes will be 

motivated to select the most economical and appropriate formulas and delivery 

methods for beneficiaries. 


COMMENTS 


A draft of this report was reviewed by the Health Care Financing Administration 

(HCFA) and the Assistant Secretary for Planning and Evaluation. Both concurred 

with our recommendations.      In addition, HCFA provided information about several 

initiatives they are pursuing to address problems raised in this report. The full text of 

HCFA’s comments are in Appendix C. 


                         .




                                             9

                        APPENDIX                  A


         RECENT OFFICE OF INSPECTJOR GENERAL STUDIES
                    ON ENTERAL, NUTRITION


Issued   Title and Number

1997     Enteral Nutrition Therapy: Medical Necessity, OEI-03-94-00022.

1997 	   Medicare Payments for Enteral Nutrition Theran Equipment and Supplies
         in Nursing Homes, OEI-06-92-00866.

1996     Enteral Nuhient Payments in Nursing Homes, OEI-06-92-00861.

1996 	   Payments for Enteral Nutrition: Medicare and Other Payers, OEI-03-94-
         00021.

1995 	   Medicare Payments for Non-Professional Services in Skilled Nursing
         Facilities, OEI-06-92-00864.

1995 	   Coverage of Enteral Nutrition Therapy: Medicare and Other Payers, OEI-
         03-94-00020.




                                    A-l
                                      APPENDIX                     B



ESTIMATES AND CONFIDENCE INTERVALS                                             PAGE

Table 1. Distribution of Beneficiaries by Determination         of Medical 
   B-2
Necessity for Enteral Nutrition Therapy 


Table 2. Questionable     Medicare Allowance Estimates for Enteral 
           B-2
Nutrition Therapy 


Table 3. Distribution    of Beneficiaries    by Whether Caloric Criteria 
     B-3
Were Met 


Table 4. Distribution of Beneficiaries       by Whether Special Enteral 
      B-3
Nutrition Formula Was Used 


Table 5. Distribution of Beneficiaries by Determination         of Medical 
   B-4
Necessity for Special Enteral Nutrition Formula 


Table 6. Questionable     Medicare Allowance Estimates for Special 
           B-4
Enteral Formula 


Table 7. Distribution    of Beneficiaries    by Whether Pump Delivery 
        B-5
Method Was Used 


Table 8. Distribution of Beneficiaries by Determination         of Medical 
   B-5
Necessity for Pump Delivery Method 


Table 9. Questionable     Medicare Allowance Estimates for Pump 
              B-6
Delivery Method                .


Table 10. Distribution of Beneficiaries       Who Met Pump Criteria Based 
    B-6
Solely on Administration Rate 


Table 11. Questionable Medicare Allowance Estimates for 
                      B-7
Beneficiaries Who Met Pump Criteria Based Solely on Administration 

Rate 

                                                                               B-7
Table 12. Distribution    of Beneficiaries    by Place of Service on May
1995 Formula Claim




                                                     B-l
We used the Survey Data Analysis (SUDAAN) software package to compute percentage,
allowance and confidence interval estimates presented in the following tables. Estimates are
weighted based on the stratified random sample design and are reported at the 95 percent
confidence level. Tables presenting questionable allowance estimates are followed by narratives
explaining our allowance estimation procedures.


Table 1.
                                               Distriiution of Beneficiaries
                                          by Determination of Medical Necessity
                                              for Enteral Nutrition Therapy


                                       AI1 Beneficiaries                         Non-Grandfathered    Beneficiaries
~
                                       Weighted            95% Confidence        Weighted         95% Confidence
                                       Percent             Interval              Percent          Interval

    Met Criteria                       77.49               73.00-81.98           79.91            75.40-84.42

    Did Not Meet Criteria              3.92                1.84-6.00             3.18             1.22-5.14

    Insufficient/                      18.59               14.42-22.76           16.91            12.68-21.14
    Conflicting Documentation




Table 2.
                                     Questionable Medicare Allowance Estimates
                                            for Enteral Nutrition Therapy


                            All Beneficiaries                               Non-Grandfathered    Beneficiaries

                            Weighted              95% Confidence            Weighted            95% Confidence
                            Total Estimate        Interval                  Total Estimate      Interval
 Questionable               $17,584,195           $12,177,027-$22991,363    $12,X6,757          $7,732,654-$16,600,860
 Medicare
 Allowances



For beneficiaries who did not meet enteral medical necessity criteria, SUDAAN was used to
estimate total Medicare allowances for unnecessary enteral therapy claims, including formula,
equipment and supplies. The SUDAAN 5 percent May 1995 estimates were then generalized to
100 percent 1995 estimates. A second allowance estimate was developed after removing
grandfathered beneficiaries from the analysis. The allowance estimate drops from $17.6 million
to $12.2 million for medically unnecessary enteral therapy claims in 1995 after removing
grandfathered beneficiaries.



                                                                 B-2 

Table 3.
                                          Distriiution of Beneficiaries
                                      by Whether Caloric Criteria Were Met

                                    All Beneficiaries                        Non-Grandfathered    Beneficiaries

                                    Weighted            95% Confidence       Weighted         95% Confidence
                                    Percent             Interval             Percent          Interval
 Met Caloric Criteria               88.78               85.43-92.13          91.10            87.91-94.29
 Did Not Meet Caloric               4.42                2.26-6.58            3.19             1.29-5.09
 Criteria
 Conflicting Information            6.79                4.10-9.48            5.72             3.07-8.37




Table 4.
                                           Distriiution of Beneficiaries
                                       by Whether Special Enteral Nutrition
                                                Formula Was Used


                           All Beneficiaries                              Non-Grandfathered   Beneficiaries

                           Weighted Percent              95% Confidence   Weighted Percent          95% Confidence
                                                         Interval                                   Interval

 Beneficiaries Used        26.73                         22.52-30.94      24.40                     20.13-28.67
 Special Formula

 Beneficiaries Did         73.27                         69.06-77.48      75.60                     71.33-79.87
 Not Use Special
 Formula




                                                               B-3 

Table 5.
                                      Distribution of Beneficiaries
                                 by Determination of Medical Necessity
                                 for Special Enteral Nutrition Formula


                     All Beneficiaries                             Non-Grandfathered    Beneficiaries

                     Weighted Percent           95% Confidence     Weighted Percent           95% Confidence
                                                Interval                                      Interval
 Need for Special    66.38                      57.72-75.04        76.89                      68.48-85.30
 Formula
 Documented
 Need for Special    22.96                      15.41-30.51        10.25                      4.78-15.72
 Formula Not
 Documented
 Conflicting         10.66                      4.64-16.68         12.86                      5.73-19.99
 Information




Table 6.
                             Questionable Medicare Allowance Estimates
                                     for Special Enteral Formula

                    All Beneficiaries                             Non-Grandfathered    Beneficiaries

                    Weighted             95% Confidence           Weighted             95% Confidence
                    Total Estimate       Interval                 Total Estimate       Interval

 Questionable       $7,984,260           $5,518,183-$10,450,338   $2,907,435           $1,515,193-$4,299,678
 Medicare
 Allowances



For beneficiaries where medical necessity for special enteral formula was not documented, we
used SUDAAN to estimate total Medicare allowances and services for undocumented special
formula in 1995. Special formulas are those with HCFA procedure codes B4151, B4153-B4156,
and xX030-xX077.     Medicare reimburses at the B4150 level if medical necessity for special
formula is not documented.

We multiplied undocumented special formula services by Medicare’s per unit controlling
allowable for code B4150. We then subtracted this quantity from Medicare allowances for
undocumented special formula, and the difference is our estimate of questionable allowances.

When grandfathered beneficiaries were removed from the analysis, the allowance estimate drops
from $8 million to about $2.9 million in questionable allowances for undocumented special
enteral formula in 1995.



                                                     B-4 

Table 7.
                                        Distriiution of Beneficiaries 

                                by Whether Pump Delivery Method Was Used 


                       AI1 Beneficiaries                         Non-Grandfathered   Beneficiaries

                       Weighted Percent        95% Confidence    Weighted Percent          95% Confidence
                                               Interval                                    Interval
 Beneficiaries Used    77.63                   73.00-82.26       76.36                     71.40-81.32
 Pump Method
 Beneficiaries Did     22.37                   17.74-27.00       23.64                     18.68-28.60
 Not Use Pump
 Method




Table 8.
                                        Distriiution of Beneficiaries
                                   by Determination of Medical Necessity
                                        for Pump Delivery Method


                       AI1 Beneficiaries                         Non-Grandfathered   Beneficiaries
                       Weighted Percent        95% Confidence    Weighted Percent          95% Confidence
                                               Interval                                    Interval
 Met Puma Criteria    1 80.29                 1 75.33-85.25     1 84.76                  1 80.00-89.52
 Did Not Meet          13.58                   9.35-17.81        8.91                      5.15-12.67
 Pumn Criteria

 Conflicting           6.13                    3.05-9.21         6.33                      3.06-9.60
 Information




                                                    B-5 

Table 9.
                                 Questionable Medicare Allowance Estimates
                                         for Pump Delivery Method


                      I-AI1 Beneficiaries                            Non-Grandfathered   Beneficiaries

                       Weighted             95% Confidence           Weighted            95% Confidence
                       Total Estimate       Interval                 Total Estimate      Interval

 Questionable          $11,513,424          $7,062,657-$15,964,191   $7,535,529          $3,794,730-$11,276,328
 Medicare
 Allowances
                                                                                                                  d




For beneficiaries where medical necessity for the pump delivery method was not documented, we 

used SUDAAN to estimate total Medicare allowances for undocumented pump equipment and 

supply kit claims. We computed total allowances and services for undocumented pump 

equipment and supply kits separately, because when Medicare denies pump delivery method 

claims, it pays for the substitute gravity delivery method. 


We multiplied undocumented pump supply kit services by the difference between the cost of a 

pump supply kit and the cost of a substitute gravity supply kit to estimate questionable Medicare 

allowances for undocumented pump supply kits. Medicare paid an estimated $8.2 million for 

undocumented pump supply kits in 1995. Medicare allowances for undocumented pump 

equipment in 1995 totaled an estimated $3.3 million. By adding these two figures, we estimated 

that Medicare paid about $11.5 million for undocumented pump delivery method claims in 1995. 


When we removed grandfathered beneficiaries from the analysis, the allowance estimate drops to 

$7.5 million for undocumented pump delivery method claims in 1995. 




Table 10.
                          Distribution of Beneficiaries Who Met Pump Criteria
                                   Based Solely on Administration Rate


                       Ail Beneficiaries                             Non-Grandfathered   Beneficiaries

                       Weighted Percent          95% Confidence      Weighted Percent          95% Confidence
                                                 Interval                                      Interval
 Administration        37.72                     31.06-44.38         37.41                     30.51-44.31
 Rate Only Criteria
 Documented

 Administration        62.28                     55.62-68.94         62.59                     55.69-69.49
 Rate NOT Only
 Criteria
 Documented




                                                       B-6 

Table 11.
                                   Questionable Medicare Allowance Estimates
                                    for Beneficiaries Who Met Pump Criteria
                                       Based Solely on Administration Rate


                         All Beneficiaries                                 Non-Grandfathered    Beneficiaries

                                                 95% Confidence Interval   Weighted            95% Confidence Interval
                    Eate                     I                             Total Estimate

 Questionable            $29,035,305             $22,200,311-$35,870,298   $28,000,773         $21,194,606-$34,806,940
 Medicare
 Allowances



We used SUDAAN to estimate questionable Medicare allowances for the pump delivery method
for beneficiaries where medical necessity for this method was documented based solely on the
administration rate criterion. The procedure used to compute these estimates is explained under
Table 9.

We estimated that Medicare and its beneficiaries could have saved about $29 million in 1995 if
these beneficiaries’ pump delivery method claims had been deemed medically unnecessary.
When grandfathered beneficiaries are removed from the analysis, the estimate of potential
Medicare savings drops to $28 million.



Table 12.
                                          Distriiution of Beneficiaries
                                by Place of Service on May 1995 Formula Claim


                                                        Weighted Percent        95% Confidence Interval
      Skilled Nursing Facility         .                61.02                   56.47-65.57
      Nursing Facility                                  7.03                    4.70-9.36
      Custodial Care Facility                           0.57                    o-1.33
      Home                                              31.38                   27.07-35.69




                                                                B-7 

                APPENDIX               C

COMMENTS   FROM THE HEALTH   CARE FINANCING   ADMINISTRATION




                             C-l
          JUN-71997
DATE;

TO:      June GibbsBrawn


FROM:


suE3m:




                           cc-21
tic-31
Page 2 

